GEORGETOWN LAW
INSTITUTE FOR PUBLIC REPRESENTATION
Directors
Hope M. Babcock
Laura Moy
Staff Attorneys
Ben Barczewski†
Lindsey Barrett*
Michael Rosenbloom**
David Schwartz***

600 New Jersey Avenue, NW, Suite 312
Washington, DC 20001-2075
Telephone: 202-662-9535
Fax: 202-662-9634

May 13, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: No. 19-840, California, et al. v. Texas, et al.
Dear Mr. Harris:
I am counsel of record for amicus curiae American Thoracic Society in this
case. I am writing to recognize the work of law student Caroline McHugh who
assisted in the preparation of the Brief of Amicus Curiae American Thoracic Society
in Support of Petitioners. Caroline, a soon-to-be graduate of Georgetown University
Law Center, handled her work with diligence and dedication. Though she is not yet
a member of the Bar, and, thus, her name could not appear on the brief, I wanted to
make a public record of her participation. I ask that you make this letter a part of
the case file.
Thank you,
Sincerely,
/s/ Hope M. Babcock
Hope M. Babcock
Counsel of Record

† Admitted to the Pennsylvania and Alaska bar. Supervised by a member of the DC bar.
* Admitted to the New York bar. Supervised by a member of the DC bar.
** Admitted to the California bar. Supervised by a member of the DC bar.
*** Admitted to the New York and DC bar.

